Ti
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,

Vv.
AGNES MORRISSEY-BERRU,
Respondent.

ST. JAMES SCHOOL,
Petitioner,
v.
DARRYL BIEL, as Personal Representative
of the Estate of Kristen Biel,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF CHRISTIAN LEGAL SOCIETY, AMERICAN
ASSOCIATION OF CHRISTIAN SCHOOLS, ASSOCIATION OF CHRISTIAN SCHOOLS INTERNATIONAL, THE
LUTHERAN CHURCH—MISSOURI SYNOD, NATIONAL ASSOCIATION OF EVANGELICALS, AND QUEENS
FEDERATION OF CHURCHES AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
THOMAS C. BERG REED N. SMITH
RELIGIOUS LIBERTY Counsel of Record
APPELLATE CLINIC KIMBERLEE WOOD COLBY
UNIVERSITY OF ST. THOMAS CENTER FOR LAW AND
SCHOOL OF LAW RELIGIOUS FREEDOM
MSL 400, 1000 LaSalle Ave. CHRISTIAN LEGAL SOCIETY
Minneapolis, MN 55403 8001 Braddock Rd.,
(651) 962-4918 Suite 302
teberg@stthomas.edu Springfield, VA 22151

(703) 894-1081
rsmith@clsnet.org

Counsel for Amici Curiae

Subscribed and sworn to before me this 10th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public Affiant

39357
 

Attorneys for Petitioners

Eric Christopher Rassbach
Counsel of Record

The Becket Fund for Religious Liberty 202-955-0095
1200 New Hampshire Avenue, NW

Suite 700

Washington, DC 20036

erassbach@becketlaw.org

Party name: Our Lady of Guadalupe School

Party name: St. James School

 

 

Attorneys for Respondents

Jennifer Anne Lipski
Counsel of Record

JML Law, A Professional Law Corporation 818-610-8800
5855 Topanga Canyon Boulevard, Suite 300
Woodland Hills, CA 91367

jennifer@jmllaw.com

Party name: Agnes Morrissey-Berru

Party name: Darryl Biel

 

 
